Supreme Court of the United States
Anthony Pappas for Congress,
a political organization created
under Title 52 of the Federal Code
and Anthony Pappas, individually,

PROOF OF SERVICE

Petitioner
-againstJoseph Lorintz, individually and as
Supreme Court Judge of the State of New York;
Henry Kruman; Maria Pappas; TD Bank, N.A.
and the State of New York,
Respondents

, under penalty of perjury pursuant to 28 USC Section
1746, states as follows: I am not a party to this proceeding. I am over the age of 18 with a
residence located in

ud^

County, New York. On March /3 , 2021,1 served

3t cop^bf Petition for Writ of Certiorari and Appendix dated March 12, 2021 in the above matter
on the following parties or their counsel by placing the same in a prepaid stamped envelope in a
United States Post Office addressed as follows:

Letitia James
New York State Attorney General
200 Old Country Road, Suite 240
Mineola, NY 11501

McGuire Woods LLP
1251 Avenue of Americas
20th Floor
New York, NY 10020

Henry Kruman
Kruman and Kruman
353 Hempstead Avenue
Malveme, NY 11565

I
i

U

